Department of Health and Human Services
                   OFFICE OF

              INSPECTOR GENERAL





THE COMMUNITY HOSPICE, INC.,

    IMPROPERLY CLAIMED

 MEDICARE REIMBURSEMENT

 FOR SOME HOSPICE SERVICES



  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                    James P. Edert

                                               Regional Inspector General

                                                   for Audit Services


                                                     September 2014
                                                      A-02-11-01016
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8M of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as

 questionable, a recommendation for the disallowance of costs

 incurred or claimed, and any other conclusions and

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating

 divisions will make final determination on these matters.

                                     EXECUTIVE SUMMARY


 The Community Hospice, Inc., improperly claimed at least $447,000 in Medicare
 reimbursement for hospice services.

WHY WE DID THIS REVIEW

The Medicare hospice benefit allows providers to claim Medicare reimbursement for hospice
services provided to individuals with a life expectancy of 6 months or less and who have elected
hospice care. Previous Office of Inspector General reviews found that a high percentage of
hospice claims did not meet certain Medicare requirements.

Our objective was to determine whether hospice services claimed for Medicare reimbursement
by The Community Hospice, Inc. (Community) complied with Medicare requirements.

BACKGROUND

Federal regulations provide the Medicare hospice benefit to eligible beneficiaries. To be eligible
for the Medicare hospice benefit, a beneficiary must be entitled to Medicare Part A and be
certified as having a terminal illness with a life expectancy of 6 months or less if the disease runs
its normal course. Inclusion in the Medicare hospice program is voluntary and can be revoked at
any time by the beneficiary. Medicare reimbursement for hospice services is made at one of four
predetermined rates—based on the level of care provided—for each day that a beneficiary is
under the hospice’s care.

HOW WE CONDUCTED THIS REVIEW

Our review covered 9,147 beneficiary-months for which Community received Medicare
reimbursement totaling $28,396,090 for hospice services provided during calendar year 2010. A
beneficiary-month includes all hospice services provided to a beneficiary during 1 month. We
reviewed all Medicare payments for hospice services related to our random sample of 100
beneficiary-months.

WHAT WE FOUND

Community claimed Medicare reimbursement for some hospice services that did not comply
with certain Medicare requirements. Of the 100 beneficiary-months in our random sample for
which Community claimed Medicare reimbursement, 93 beneficiary-months complied with
Medicare requirements, but 7 did not.

The improper payments occurred because Community did not always (1) maintain adequate
documentation to support a beneficiary’s eligibility for hospice services or (2) ensure that it
billed Medicare for the appropriate level of hospice care.




The Community Hospice, Inc., Medicare Hospice Services (A-02-11-01016)                              i
On the basis of our sample results, we estimated that Community improperly received at least
$447,467 in Medicare reimbursement for hospice services that did not comply with certain
Medicare requirements.

WHAT WE RECOMMEND

We recommend that Community:

    •	 refund $447,467 to the Federal Government and

    •	 strengthen its procedures to ensure that it complies with Medicare requirements for
       claiming hospice services.

THE COMMUNITY HOSPICE, INC., COMMENTS AND OUR RESPONSE

In written comments on our draft report, Community generally disagreed with our first
recommendation (financial disallowance) and agreed with our second recommendation.
Specifically, Community agreed to refund the Medicare payments associated with 4 of the 7
beneficiary-months for which we determined that services did not comply with Medicare
requirements. Community stated that, for the claims associated with the remaining 3
beneficiary-months, it believed that there was ample documentation to support the associated
beneficiary’s terminal prognosis. Finally, Community contested the extrapolation of the audit
results to arrive at an estimated repayment amount.

After reviewing Community’s comments, we maintain that our findings and recommendations
are valid. Specifically, the hospice services in question did not comply with Medicare
requirements.




The Community Hospice, Inc., Medicare Hospice Services (A-02-11-01016)                          ii
                                                     TABLE OF CONTENTS


INTRODUCTION ....................................................................................................................1


           Why We Did This Review ............................................................................................1


           Objective .......................................................................................................................1


           Background ...................................................................................................................1

                 The Medicare Program .....................................................................................1

                 The Medicare Hospice Benefit .........................................................................1

                 The Community Hospice, Inc. ..........................................................................2


           How We Conducted This Review.................................................................................2


FINDINGS ................................................................................................................................3


           Beneficiary Eligibility Not Adequately Documented ...................................................3


           Level-of-Care Not Supported .......................................................................................4


RECOMMENDATIONS ..........................................................................................................4


THE COMMUNITY HOSPICE, INC., COMMENTS ............................................................5


OFFICE OF INSPECTOR GENERAL RESPONSE ...............................................................5


APPENDIXES


           A: Audit Scope and Methodology ...............................................................................7


           B: Statistical Sampling Methodology ..........................................................................9


           C: Sample Results and Estimates ................................................................................10


           D: The Community Hospice, Inc., Comments.............................................................11





The Community Hospice, Inc., Medicare Hospice Services (A-02-11-01016)                                                                           iii
                                              INTRODUCTION


WHY WE DID THIS REVIEW


The Medicare hospice benefit allows providers to claim Medicare reimbursement for hospice
services provided to individuals with a life expectancy of 6 months or less and who have elected
hospice care. Previous Office of Inspector General (OIG) reviews found that a high percentage
of hospice claims did not meet certain Medicare requirements.

OBJECTIVE

Our objective was to determine whether hospice services claimed for Medicare reimbursement
by The Community Hospice, Inc. (Community) complied with Medicare requirements.

BACKGROUND

The Medicare Program

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Medicare Part A, also known as hospital insurance, provides for the coverage of various types of
services, including hospice services. CMS contracts with four Home Health and Hospice
Medicare Administrative Contractors (MAC) to process and pay Medicare hospice claims.

The Medicare Hospice Benefit

Medicare Part A covers hospice services provided to eligible beneficiaries (sections 1812(a)(4)
and (5) of the Act). The Medicare hospice benefit has four levels of care: routine home care,
continuous home care, inpatient respite care, and general inpatient care. Each level has an all-
inclusive daily rate that is paid through Part A. 1 The goals of hospice care are to help terminally
ill beneficiaries continue life with minimal disruption and to support beneficiaries’ families and
other caregivers throughout the process. This care is palliative (supportive), rather than curative,
and includes, among other things, nursing care, medical social services, hospice aide services,
medical supplies, and physician services.

To be eligible for hospice care, a beneficiary must be entitled to Medicare Part A and be certified
as having a terminal illness with a life expectancy of 6 months or less if the disease runs its
normal course. 2



1
    42 CFR § 418.302.
2
    Sections 1814(a)(7)(A) and 1861(dd)(3)(A) of the Act and 42 CFR § 418.20.


The Community Hospice, Inc., Medicare Hospice Services (A-02-11-01016)                             1
Upon a beneficiary’s election of hospice care, the hospice assumes the responsibility for medical
care for the beneficiary’s terminal illness. The beneficiary waives all rights to Medicare
payment for services related to the curative treatment of the terminal condition or a related
condition. 3 Inclusion in the Medicare hospice program is voluntary and can be revoked at any
time by the beneficiary. 4

Beneficiaries are entitled to receive hospice care for two 90-day periods, followed by an
unlimited number of 60-day periods. 5 At the start of the initial 90-day period of care, the
hospice must obtain written certification of the beneficiary’s terminal illness from the hospice
medical director or the physician member of the hospice interdisciplinary group and the
individual’s attending physician, if any. For subsequent periods, a written certification by
physician of the hospice is required. 6 The initial certification and all subsequent re-certifications
must include a brief narrative explanation of the clinical findings that supports a life expectancy
of 6 months or less. 7

The Community Hospice, Inc.

Community is a nonprofit hospice located in Rensselaer, New York, that provides hospice
services to those who are seriously ill as well as support for their families. During calendar year
(CY) 2010, Community provided hospice services to beneficiaries residing in seven upstate
New York State counties.

National Government Services, Inc. (NGS), serves as the Home Health and Hospice MAC for
hospice providers in Jurisdiction 6, which includes New York State.

HOW WE CONDUCTED THIS REVIEW

Our review covered 9,147 beneficiary-months for which Community received Medicare
reimbursement totaling $28,396,090 for hospice services provided during CY 2010. A
beneficiary-month includes all hospice services provided to a beneficiary during 1 month. We
reviewed all Medicare payments for hospice services related to our random sample of 100
beneficiary-months. For certain sample items, we sought NGS’s assistance in determining
whether the associated hospice services met Medicare requirements.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions


3
    Sections 1812(d)(2)(A) and 1861(dd)(1) of the Act.
4
    Section 1812(d)(2)(B) of the Act.
5
    42 CFR § 418.21(a).
6
    42 CFR § 418.22(c).
7
    42 CFR § 418.22(b)(3).


The Community Hospice, Inc., Medicare Hospice Services (A-02-11-01016)                                2
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology, Appendix B contains our
statistical sampling methodology, and Appendix C contains our sample results and estimates.

                                                      FINDINGS

Community claimed Medicare reimbursement for some hospice services that did not comply
with certain Medicare requirements. Of the 100 beneficiary-months in our random sample for
which Community claimed Medicare reimbursement, 93 beneficiary-months complied with
Medicare requirements, but 7 did not. Specifically, for 5 beneficiary-months, the associated
beneficiary’s eligibility for hospice services was not adequately documented and for 2
beneficiary-months, the associated beneficiary’s case records did not support the level of care
claimed for reimbursement.

The improper payments occurred because Community did not always (1) maintain adequate
documentation to support a beneficiary’s eligibility for hospice services or (2) ensure that it
billed Medicare for the appropriate level of hospice care.

On the basis of our sample results, we estimated that Community improperly received at least
$447,467 in Medicare reimbursement for hospice services that did not meet Medicare
requirements.

BENEFICIARY ELIGIBILITY NOT ADEQUATELY DOCUMENTED

To be eligible for the Medicare hospice benefit, a beneficiary must be entitled to Part A and be
certified as being terminally ill. 8 For the initial period of care, the hospice must obtain from the
hospice’s physician and the beneficiary’s attending physician (if any), a written certification of
the terminal illness that specifies the beneficiary’s prognosis is for a life expectancy of 6 months
or less if the illness runs it normal course. 9 The certification must be accompanied by clinical
information and other documentation that supports the medical prognosis and must be signed and
dated by the physician(s). The written certification must be obtained before the hospice submits
a claim for payment. 10

For 5 beneficiary-months, Community claimed Medicare reimbursement for services provided to
beneficiaries whose eligibility for the Medicare hospice benefit was not adequately
documented. 11 Specifically:



8
    Sections 1814(a)(7)(A) and 1861(dd)(3)(A) of the Act and 42 CFR § 418.20.
9
    For subsequent periods of care, only a written certification from the hospice’s physician is required.
10
     42 CFR § 418.22.
11
     The medical review staff of NGS made these determinations.


The Community Hospice, Inc., Medicare Hospice Services (A-02-11-01016)                                       3
       •	 For 3 beneficiary-months, the clinical documentation provided by Community did not
          support the associated beneficiary’s terminal illness diagnosis.

       •	 For 1 beneficiary-month, the clinical documentation provided by Community did not
          support the associated beneficiary’s terminal prognosis (i.e., the documentation did not
          indicate that the beneficiary had 6 months or less to live).

       •	 For 1 beneficiary-month, there was no physician’s written certification in the associated
          beneficiary’s case record.

LEVEL-OF-CARE NOT SUPPORTED

Medicare reimbursement for hospice services is made at one of four predetermined rates—based
on the level of care provided—for each day that a beneficiary is under the hospice’s care. The
four levels are (1) routine home care, (2) continuous home care, (3) inpatient respite care, 12 and
(4) general inpatient care. 13, 14 The inpatient rate (general or respite) is paid for the date the
beneficiary is admitted to the hospice and all subsequent inpatient days, except the day on which
the patient is discharged. For the date of discharge, the appropriate home care rate (routine or
continuous) is paid. 15

For 2 beneficiary-months, Community claimed Medicare reimbursement for some services for
which the associated beneficiary’s case records did not support the level-of-care claimed.
Specifically, Community claimed the general inpatient level of care; however the beneficiaries’
case records supported the inpatient respite level of care. 16 In addition, for one of these
beneficiary-months, Community claimed the beneficiary’s date of discharge at the general
inpatient care rate rather than the appropriate routine home care rate. 17

                                             RECOMMENDATIONS

We recommend that Community:

       •	 refund $447,467 to the Federal Government and




12
  Inpatient respite care is provided only when necessary to relieve family members or other persons caring for the
beneficiary at home.
13
  General inpatient care is for pain control or acute or chronic symptom management that cannot be managed in
other settings.
14
     Definitions and payment procedures for specific level-of-care categories are codified at 42 CFR § 418.302.
15
     42 CFR § 418.302(e)(5).
16
     The medical review staff of NGS made these determinations.
17
     For these services, we questioned the difference between the level-of-care claimed and level-of-care provided.


The Community Hospice, Inc., Medicare Hospice Services (A-02-11-01016)                                                4
    •	 strengthen its procedures to ensure that it complies with Medicare requirements for
       claiming hospice services.

                      THE COMMUNITY HOSPICE, INC. COMMENTS

In written comments on our draft report, Community generally disagreed with our first
recommendation (financial disallowance) and agreed with our second recommendation.
Specifically, Community agreed to refund the Medicare payments associated with 4 of the 7
beneficiary-months for which we determined that services did not comply with Medicare
requirements. Community stated that, for the claims associated with the remaining 3
beneficiary-months, it believed there was ample documentation to support the beneficiary’s
terminal prognosis.

Community also stated that if NGS–the Home Health and Hospice MAC for hospice providers in
Jurisdiction 6–reopens the claims for the 3 beneficiary-months for which Community disagreed
with our determinations, Community intends to invoke Federal requirements that limits a
provider’s liability and the time period during which a paid claim can be reopened by a MAC.
Specifically, Community cited section 1870 of the Act, which prohibits recovery of any paid
claims subsequent to the third year following the year the original payment was made if the
provider was “without fault.” Community stated that all of the claims we reviewed were made in
2010 and therefore, any findings by OIG or NGS would be made after the third year of the
original payment. Community also cited section 1879 of the Act, which limits the liability of a
Medicare provider if the provider did not know, and could not reasonably been expected to
know, that payment would not be made. According to Community, a denial of coverage for
hospice services based on a determination that the beneficiary is not terminally ill is included
among the situations where liability may be limited. Finally, Community cited 42 CFR §
405.980(b), which prohibits a Medicare contractor from reopening an initial determination more
than 4 years after the date of the initial determination unless there is reliable evidence of fraud or
similar fault.

Community also contested the extrapolation of the audit results to arrive at an estimated
repayment amount. Community cited section 1893(f)(3) of the Act, which prohibits Medicare
contractors from using an extrapolation to determine overpayments unless there is a sustained or
high level of payment error. Additionally, Community stated that OIG guidance supports the use
of statistical sampling in cases of providers subject to a Corporate Integrity Agreement (CIA)
and since Community was not the subject of a CIA, there was no basis for extrapolation. Finally,
Community noted that OIG failed to net small underpayments discovered during the course of
the audit against overpayments and that the amount Community already refunded should be
deducted from the recommended financial disallowance.

Community’s comments are included in their entirety as Appendix D.




The Community Hospice, Inc., Medicare Hospice Services (A-02-11-01016)                               5
                        OFFICE OF INSPECTOR GENERAL RESPONSE


After reviewing Community’s comments, we maintain that our findings and recommendations
are valid.

First, we maintain that Community claimed Medicare reimbursement for services provided to
beneficiaries whose eligibility for the Medicare hospice benefit was not adequately documented.
We made our determinations based on recommendations made by NGS medical review staff
with extensive knowledge of Medicare requirements related to hospice care. NGS medical
review staff concluded that Community’s records did not contain sufficient evidence to support
the beneficiary’s terminal prognosis.

Second, regarding Community’s assertion that claims for the period we reviewed are time-barred
from being reopened because Community was “without fault” and because there was no
evidence of similar fault, we note that CMS (the action official) will reexamine all cases that we
have recommended disallowing and determine whether an overpayment exists and if the
limitation of liability provisions apply.

Lastly, we disagree with Community’s objections to our use of statistical sampling and to
extrapolating the sample results to arrive at an estimated financial disallowance. Federal courts
have consistently upheld statistical sampling and extrapolation as a valid means to determine
overpayment amounts in Medicare. 18 It should also be noted that Community’s argument that
Medicare contractors are prohibited from using extrapolation to determine overpayment amounts
is not applicable as OIG is not a Medicare contractor. We did not consider the underpayments
identified during the course of our review as we had no assurance that NGS would pay these
claims. However, Community is aware of what claims are affected and can resubmit these
claims if it so chooses. Finally, CMS will make the final determination as to the total amount to
be refunded and will take into consideration any amounts Community has already refunded.




18
  See Anghel v. Sebelius, 912 F. Supp. 2d 4 (E.D.N.Y. 2012); Miniet v. Sebelius, 2012 U.S. Dist. LEXIS 99517
(S.D. Fla. 2012); Bend v. Sebelius, 2010 U.S. Dist. LEXIS 127673 (C.D. Cal. 2010).



The Community Hospice, Inc., Medicare Hospice Services (A-02-11-01016)                                         6
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY


SCOPE

Our review covered 9,147 beneficiary-months for which Community received Medicare
reimbursement totaling $28,396,090 for hospice services provided during CY 2010. A
beneficiary-month includes all hospice services provided to a beneficiary during 1 month.

We did not assess Community’s overall internal control structure. Rather, we limited our review
of internal controls to those applicable to our objective. Specifically, we obtained an
understanding of Community’s policies and procedures related to hospice services.

We performed our fieldwork at Community’s office in Rensselaer, New York.

METHODOLOGY

To accomplish our objective, we:

    •	 reviewed applicable Medicare laws, regulations, and guidelines;

    •	 met with CMS officials to gain an understanding of the Medicare hospice benefit;

    •	 met with NGS officials to gain an understanding of the Medicare requirements related to
       hospice services;

    •	 met with Community officials to gain an understanding of its policies and procedures
       related to providing and billing Medicare for hospice services;

    •	 obtained from the CMS National Claims History file a sampling frame of 9,147 

       beneficiary-months, totaling $28,396,090, for CY 2010;


    •	 selected a simple random sample of 100 beneficiary-months from the sampling frame;

    •	 obtained and reviewed case records and claim payment data for each of the sampled
       beneficiary-months to determine whether:

        o	 the associated beneficiary was eligible for hospice services and

        o	 the services provided met Medicare requirements;

    •	 submitted case records for certain sample items to NGS for their assistance in
       determining whether the associated hospice services met Medicare requirements; and

    •	 estimated the total unallowable Medicare reimbursement paid in the population of 9,147
       beneficiary-months.



The Community Hospice, Inc., Medicare Hospice Services (A-02-11-01016)                           7
See Appendix B for the details of our statistical sampling methodology and Appendix C for our
sample results and estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




The Community Hospice, Inc., Medicare Hospice Services (A-02-11-01016)                          8
               APPENDIX B: STATISTICAL SAMPLING METHODOLOGY


POPULATION

The population consisted of all Medicare Part A payments made to Community for a beneficiary-
month during CY 2010. A beneficiary-month is defined as all hospice services Community
provided to a beneficiary during 1 month.

SAMPLING FRAME

The sampling frame was an Access database containing 9,147 beneficiary-months, totaling
$28,396,090. The data was extracted from the CMS National Claims History file.

SAMPLE UNIT

The sample unit was a beneficiary-month.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 beneficiary-months.

SOURCE OF THE RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services (OAS) statistical software.

METHOD FOR SELECTING SAMPLE ITEMS

We consecutively numbered the beneficiary-months in our sampling frame. After generating
100 random numbers, we selected the corresponding sampling frame items.

ESTIMATION METHODOLOGY

We used the OAS statistical software to appraise the sample results. We used the lower limit of
the 90-percent confidence interval to estimate the total amount of improper Medicare payments
for unallowable hospice services made to Community.




The Community Hospice, Inc., Medicare Hospice Services (A-02-11-01016)                            9
                    APPENDIX C: SAMPLE RESULTS AND ESTIMATES



                                     Sample Details and Results

                                                                       No. of        Value of
 Beneficiary-                                                        Unallowable    Unallowable
  Months in           Value of          Sample       Value of        Beneficiary-   Beneficiary-
   Frame               Frame             Size        Sample            Months         Months
     9,147           $28,396,090          100        $303,078             7           $17,059


                             Estimated Value of Beneficiary-Months
                      (Limits calculated for a 90-Percent Confidence Interval)

                                   Point Estimate $1,560,350
                                     Lower Limit    $447,467
                                     Upper Limit $2,673,233




The Community Hospice, Inc., Medicare Hospice Services (A-02-11-01016)                          10
             APPENDIX D: THE COMMUNITY HOSPICE, INC. COMMENTS



                                                                                                     295 Valley View Boulevard



      H i10SPICE
                                                                                                     Rensselaer, New York 12144
                                                                                                     ph 518.285.8150/fx 518.285.8151

                                                                                                     u•wt.l'.commumtyhospice .arg




            July 10,2014

            Via U.S. Mail and Email

            James P. Edert
            Regional Inspector General
             for Audit Services
            Office of Audit Services, Region II
            Jacob K. Javits Federal Building
            26 Federal Plaza, Room 3900
            New York, NY 1027!l

            Re: Report Number A-02-11-01016

            Dear Mr. Edert:

            Thank you for the opportunity to comment on draft report Number A-02-11-0 I 016. The
            Community Hospice, Inc., is committed to compliance with a ll regulations and standards
            govern ing its participation in the Medicare program, and we welcome the opportunity that was
            afforded by thi s audit to improve our internal controls and processes to better ensure compliance.

            Our responses to the OIG's two recommendations are set forth below.

            Recommendation #1: Refund $447,467 to the Federal Government

            We strongly object to the O IG's first recommendation for the following reasons.

            First, while we have conceded four of the seven sample beneficiary months and have repaid the
            associated Medicare payments, we continue to believe that there was ample documentation to
            support the beneficiary's terminal prognosis in the three remaining sample beneficiary-months
            (samples #30, #35, and #63). Should our Medicare Administrative Carrier (MAC), NGS, seck to
            reopen these three claims, we intend to exercise ou r hearing and appeal rights. Because the
            medical reviews in this audit were conducted by NGS and relayed with only brief written
            explanations, without an opportunity to di scuss them directly with NGS, the precise basis for



                         Alhany G1unry • Am~rerdam • Columhia/Grecnc • Rcn.~""elacr Count\ • S;uaw,.:a • Schcm:craJy
            100924791!




The Community Hospice, Inc., Medicare Hospice Services (A-02-11-01016)                                                                 11
            their findings is not entirely clear to us. In one instance (#30), for example, it appears that NGS
            concluded that the beneficiary was ineligible because the principal terminal diagnosis (aortic
            stenosis) was not documented in the patient's record by a copy of an echocardiogram report that
            demonstrated severe/critical aortic stenosis. While we have since obtained a copy of that report
            from the hospital where the patient was an inpatient at the time of hospice admission, physician
            notes that were included in the documentation provided to OIG listed multiple medical co­
            morbidities, including severe aortic stenosis, coronary artery disease, peripheral vascular disease,
            chronic hypertension, atrial fibrillation, congestive heart failure, cardiomyopathy with left
            ventricular hypertrophy, diabetes mellitus, and chronic kidney disease. Additional health
            conditions were reflected in other documentation provided, and the hospital discharge summary
            reflected that four physicians, including a Community Hospice medical director and the patient's
            attending physician, concurred in the hospice admission. In another case (#63), it appears that
            the NGS reviewer applied the Local Coverage Determination for Hospice - Determining
            Terminal Status (L25678), relating to the patient's terminal diagnosis of acute renal failure, like a
            checklist, denying eligibility solely because the patient's serum creatinine level did not, strictly
            speaking, meet LCD criteria for end-stage renal disease. As noted in the LCD at page 2: "Some
            patients may not meet these guidelines, yet still have a life expectancy of six months or less." In
            the case of patient #63, a 90 year-old, our medical director noted that it is well-recognized in the
            medical community that serum creatinine overestimates renal function in the very old and three
            physicians concurred in the assessment of hospice eligibility. Because we believe that the
            documentation available to and reviewed by these three patients' certifying hospice medical
            directors was sufficient to support their eligibility, we will vigorously exercise our appeal rights.

            Second, ifNGS seeks to re-open the three samples at issue, Community Hospice intends to
            invoke to the extent applicable provisions of the Social Security Act and Medicare regulations
            that limit the time period in which a Medicare contractor may reopen a paid claim and limit a
            provider's liability under certain circumstances. These include:

                •    42 C.F.R. Section 405.980(b), which prohibits a Medicare contractor from reopening an
                     initial determination more than four years after the date of the initial determination unless
                     "there exists reliable evidence as defined in §405.902 that the initial determination was
                     procured by fraud or similar fault as defined in §405.902." Section 405.902 defines
                     "reliable evidence" as "evidence that is relevant, credible, and material." Section
                     405.902 defines "similar fault" as "to obtain, retain, convert, seck, or receive Medicare
                     funds to which a person knows or should reasonably be expected to know that he or she
                     or another for whose benefit Medicare funds are obtained, retained, converted, sought or
                     received is not legally entitled." We respectfully submit that the small number of errors
                     in this audit (if one accepts the audit report findings, at most 7% in raw numbers and only
                     5.62% if one looks at the financial error rate) is evidence in itself that there was neither
                     fraud nor "similar fault."

                •     Section 1870 of the Social Security Act, which prohibits recovery of an overpayment to a
                      provider if such provider was "without fault" with respect to the overpayment. Section
                      1870(b) (as applicable to the claim year involved here, calendar year 20 I 0) establishes a
                      presumption that a provider "shall, in the absence of evidence to the contrary, be deemed
                      to be without fault" if the Secretary's determination that there was an overpayment is



            100924793 )




The Community Hospice, Inc., Medicare Hospice Services (A-02-11-01016)                                               12
                       made after the third year following the year in which the payment was originally made. 1
                       All of the claims payments in this audit were made in 2010, and thus any final findings
                       by the OIG or NGS will be made after the third year after the year payment was made.
                       To overcome the presumption, there would have to be actual evidence of"fault" on the
                       part of Community Hospice. We respectfully submit that the very occasional instances
                       when the professional clinical judgment of a Community Hospice certifying physician
                       have been found to be at odds with the determination of the NGS medical reviewers in
                       this audit do not constitute evidence of"fault" sufficient to overcome the presumption.
                       The same can be said for the instances of inadequate documentation of the hospice level
                       of care or a single missing recertification.

                  •    Section 1879 of the Social Security Act, which limits the liability of both the Medicare
                       beneficiary and the provider of services for an overpayment, if both the beneficiary and
                       the provider "did not know, and could not reasonably have been expected to know" that
                       payment would not be made for such items or services. A denial of coverage for hospice
                       services based on a determination that the beficiary is not terminally ill is specifically
                       included as among the situations where liability may be limited. Social Security Act
                       § 1879(g)(2). While we acknowledge that a hospice provider should reasonably be
                       expected to know that payment will be denied if a certification of terminal illness is
                       missing (as in the case of sample #2) or if the day of discharge from inpatient hospice
                       care is mistakenly billed at the inpatient level of care (as in the case of sample #75), we
                       respectfully submit that close cases involving the exercise of professional judgment and
                       experience in determining the existence of a terminal condition are precisely the kind of
                       situation to which the limitation of liability provision of Section 1879 applies.

            Third, we strongly contest the proposed extrapolation ofthe results of the audit of 100 sample
            beneficiary-months to arrive at an estimated repayment amount. Section 1893(f)(3) of the Social
            Security Act, added by Section 935 of the Medicare Prescription Drug, Improvement, and
            Modernization Act of 2003 (Pub. L. I 08-17) prohibits Medicare contractors from using an
            extrapolation to determine overpayment amounts unless the Secretary determines that "there is a
            sustained or high level of payment error" or "documented educational intervention has failed to
            correct the payment error." See also CMS, Medicare Program Integrity Manual, !OM 100-08,
            Chapter 8, Section 8.4.1.2.

            CMS has not issued regulations or other guidance specifically defining what a sustained or high
            level of payment error rate might be, but other guidance from CMS clearly suggests that a
            financial error rate of only 5.62% (or just 2.68% if we prevail on an appeal of the three contested
            sample beneficiary-months) does not provide a basis for extrapolation. In Section 3.7.1.1 of
            Chapter 3 of the Medicare Program Integrity Manual, CMS notes that if a MAC identifies a
            provider-specific problem, the MAC should conduct a review (on either a pre-payment or post­
            payment basis) to determine the provider's specific error rate. In the case of post-payment
            review, the error rate is calculated using the following formula: dollar amount of services paid in
            error as determined by medical review/dollar amount of services medically reviewed. In making

            1
              The American Taxpayer Relief Act of2012, Pub. L. No. 112-240 §638(a), 126 Stat. 2357, extended this time limit
            from the third year after the claim was initially paid to the fifth year after payment was made. The law was effective
            January 2, 2013 . /d. §638(b).


             100924793 )




The Community Hospice, Inc., Medicare Hospice Services (A-02-11-01016)                                                               13
             the computation, the MAC is directed to net out (subtract) the dollar amount of charges under­
             billed. In Section 3.7.1.2 of the Manual, CMS provides seven different vignettes to provide
             guidance to MACs in characterizing and responding to varying levels of confirmed error rates.
             In the first vignette, 20 claims are reviewed. One claim is denied because a physician signature
             is lacking a plan of care. The denial reflects 7% of the dollar amount of the claims reviewed. In
             this situation, CMS concludes that no further review is necessary at that time. In another
             vignette, 40 claims arc reviewed and a 25% error rate (by dollars) leads to notification of the
             provider about the specific error and the initiation of a moderate amount (e.g., 30%) of
             prepayment medical review to ensure proper billing. In the one vignette that results in a decision
             to conduct a post-payment review utilizing statistical sampling and extrapolation, the provider
             error rate on an initial review of 35 claims was 75%, a far cry from the 5.62% error rate that the
             OIG has determined.

             The OIG's own guidance relative to the use of statistical sampling also does not support the use
             of statistical sampling in the case of Community Hospice. The OIG has posted "FAQs"
             applicable to providers who are subject to Corporate Integrity Agreements. Those providers are,
             almost by definition, providers who have been determined to have "a sustained or high level of
             payment error," and thus with respect to whom the use of statistical sampling and extrapolation
             would be permitted by Section 1893. In the FAQs (http://oig.hhs/fags/corporate-intcgrity­
             agreements-fag.asp), at section 4, CIA Claims Reviews, the OIG discusses the use of discovery
             samples of 50 sampling units, to determine a "net financial error rate" (i.e., netting
             underpayments against overpayments to arrive at the error rate). If the net financial error rate in
             the discovery sample equals or exceeds 5%, then the discovery sample is used to determine the
             size of a full sample, which would then be reviewed and the results extrapolated. But if the
             discovery sample's net financial error rate is less than 5%, the review is complete. See Q 4.14.
             In that case, any identified overpayments would be repaid, but no full sample would be generated
             or extrapolated. Given that Community Hospice is not the subject of a Corporate Integrity
             Agreement, there is no basis for extrapolation based on an error rate of 5.62%, let alone 2.68%.

             In this connection, we note that the OIG has failed to net the small underpayments that were
             discovered during the course of the audit against the overpayments. See samples #28, #66, #70,
             and #86.

             Finally, in recommending that Community Hospice repay $447,467, the OIG has overlooked that
             we have already repaid a total of$72,169.64 toNGS, $35,981.85 ofwhich is attributable to
             payments received in calendar year 20 I 0. This $35,981.85 should be deducted from the
             recommended repayment amount.

             Recommendation #2: Community should strengthen its procedures to ensure that it
             complies with Medicare requirements for claiming hospice services.

             We concur with this recommendation. Since the conduct of the audit, Community Hospice has
             tightened its procedures to ensure that copies of original documentation from hospitals, nursing
             homes and other health care providers who were involved in a prospective hospice beneficiary's
             care, and which are relied upon by the hospice medical director in certifying the beneficiary's
             terminal prognosis, are obtained and placed in the hospice medical record in a timely manner.



             {009247931




The Community Hospice, Inc., Medicare Hospice Services (A-02-11-01016)                                             14
            We have also continued to refine our existing policies and procedures for ensuring that
            recertifications are obtained in a timely manner.

            In closing, I would like to thank Mr. Jacobs and all of the members of the OIG's audit team for
            the professionalism, courtesy and cooperation that they extended to us throughout the audit.

                                                          Sincerely,

                                                     #til(/        /Jtflh~
                                                         Laurie Mantc
                                             Vice President and Executive Director

            cc:        Anne Brockenauer
                       Paul Heasley, M.D.
                       Virginia Arbour
                       Carol A. Hyde, Esq.




             100924 793 }




The Community Hospice, Inc., Medicare Hospice Services (A-02-11-01016)                                        15
